No. 19-1135
IN THE

DIGNITY HEALTH D/B/A MERCY SAN JUAN
MEDICAL CENTER,

Petitioners,

v.
EVAN MINTON,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
FIRST APPELLATE DISTRICT
BRIEF OF THE CATHOLIC HEALTH
ASSOCIATION OF THE UNITED STATES AND THE
ALLIANCE FOR CATHOLIC HEALTH CARE AS
AMICI CURIAE IN SUPPORT OF PETITIONERS
Catherine Hurley
CATHOLIC HEALTH
ASSOCIATION OF THE
UNITED STATES
1875 Eye St. NW
Suite 1000
Washington, DC 20006

Mark E. Chopko

Counsel of Record

Marissa Parker
Jennifer A. Gniady
STRADLEY RONON
STEVENS & YOUNG, LLP
2000 K St., N.W., Ste 700
Washington, DC 20006
(202) 822-9611
mchopko@stradley.com

Counsel for Amici Curiae
Catholic Health Association of the United States
Alliance for Catholic Health Care

TABLE OF CONTENTS
Page
TABLE OF CONTENTS .............................................. i
TABLE OF CITED AUTHORITIES ........................... ii
INTEREST OF AMICI CURIAE ................................ 1
SUMMARY OF ARGUMENT ..................................... 3
ARGUMENT IN SUPPORT OF GRANTING THE
PETITION ................................................................... 6
A. The Ministry of Catholic Health Care Must
Follow the Ethical and Religious Directives
for Catholic Health Care Services ........................ 6
B. State Regulation Should Not Penalize
Religious Health Care. ........................................ 14
CONCLUSION .......................................................... 24

ii

TABLE OF CITED AUTHORITIES
Page
CASES

Allen v. Sisters of St. Joseph, 361 F.Supp. 1212 (N.D.

Tex. 1973) ............................................................... 17

Boy Scouts of America v. Dale, 530 U.S. 640 (2000) 24
Burwell v. Hobby Lobby Stores, 134 S.Ct. 2751 (2014)

.......................................................................... 18, 19
Corporation of the Presiding Bishop v. Amos, 483
U.S. 327 (1987) ....................................................... 18
EEOC v. Catholic Univ. of Am., 83 F.3d 455 (D.C.
Cir. 1996) ................................................................ 19

Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC, 565 U.S. 171 (2012) .................... 15
Kedroff v. St. Nicholas Cathedral, 344 U.S. 94 (1952)

................................................................................ 16

Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, 138 S.Ct. 1719 (2018)....................... 19
Means v. United States Conference of Catholic
Bishops, 2015 WL 3970046 (W.D. Mich. 2015), aff’d
(6th Cir. 2016) 836 F.3d 643 .................................. 18

Mitchell v. Helms, 530 U.S. 793 (2000) .................... 16

N.L.R.B. v. Catholic Bishop of Chicago, 440 U.S. 490
(1979). ..................................................................... 17
New v. Kroeger, 167 Cal.App.4th 800 (Cal.App. 2008)
................................................................................ 16
North Coast Women’s Care Med. Grp v. Super. Ct.,
44 Cal.4th 1145 (Cal. 2008) .................................... 20

iii

Pierce v. Society of the Sisters of the Holy Names of
Jesus and Mary. 268 U.S. 510 (1925) ................... 23
Taylor v. St. Vincent’s Hosp. 523 F.2d 75 (9th Cir.
1975) ....................................................................... 17
Thomas v. Review Bd. of Ind., 450 U.S. 707 (1981) . 16
Watkins v. Mercy Med. Ctr. 364 F. Supp. 799 (D.
Idaho 1973), aff’d 520 F.2d 894 (9th Cir. 1975) .... 17
OTHER AUTHORITIES
Acts 3:1-10 ............................................................................. 4
David Foster et al., “Hospital Performances
Differences by Ownership,” Truven Health
Analytics (June 11, 2013) ............................................. 9
Deuteronomy 15:11 ............................................................ 7
Differences in Health System Quality Performance
by Ownership, THOMSON REUTERS, Aug. 9, 2010.... 9
Ed Langlois, Bishop says Oregon hospital can no
longer be called Catholic, CATHOLIC NEWS SERVICE
(Feb. 16, 2010) ............................................................... 11
Howard Brubaker, Ellie Rushing, “Mercy Hospital in
West Philadelphia faces closure as an inpatient
facility,” Phila. Inquirer (Feb. 12, 2020) ................. 21
Karen Sue Smith, A Summary: Caritas in
Communion, 94 HEALTH PROGRESS 80 (July—
August 2013) ................................................................... 8
Kevin O’Rourke, Thomas Kopfensteiner, Ron Hamel,

A Brief History: A Summary of the Development of
the Ethical and Religious Directives for Health
Care Services, 82 HEALTH PROGRESS 6, Nov.-Dec.

2001 ................................................................................. 11
Matthew 24:40 .................................................................... 7
Mission, Vision, Values, DIGNITY HEALTH .................... 8
Proverbs 31:9 ....................................................................... 7

iv
United States Conference of Catholic Bishops,

Ethical and Religious Directives for Catholic
Health Care Services (Sixth Edition, June 2018)

................................................................................... passim

INTEREST OF AMICI CURIAE 1
The decision of the California Court of Appeal
in the instant case portends ill for all religious
organizations that serve the public following the
precepts of religious teaching. It does not overtly bar
a religious organization from following those
teachings.
It is more insidious: it allows the
maintenance of a lawsuit seeking sweeping relief
under California’s Unruh (antidiscrimination) Act. It
therefore penalizes the religious actor and, going
forward, communicates to Petitioner and all similarly
situated religious service providers that following
your beliefs comes at a price. Given the size of the
religious service sector, the adverse impacts of such a
rule will be widespread and pernicious. These amici
write to urge this Court to correct it now.
The Catholic Health Association of the United
States (“CHA”) is the national leadership
organization for the Catholic health ministry,
encompassing more than 600 hospitals and 1,600
long-term care and other health facilities across all
Counsel of record for all parties received timely notice at
least ten days prior to the filing due date of CHA’s intention to
file this brief. All parties have consented to the filing of this
brief. Pursuant to Rule 37.6 of the Rules of this Court, CHA
and ACHC state that no counsel for a party authored this brief
in whole or in part, and no counsel or party made a monetary
contribution intended to fund the preparation or submission of
this brief amicus curiae. No other person other than CHA,
ACHC or their counsel made a monetary contribution to its
preparation or submission.

1

2
50 states and the District of Columbia. In this role,
CHA provides a passionate voice for organizations
carrying on Jesus’ mission of love and healing in the
Catholic tradition. Rooted in and inseparable from
the teachings of the Catholic Church, these
ministries embrace a holistic approach to health care
that surpasses merely providing for the physical
body, but also seeks to care for a person’s mind and
spirit, as well as the surrounding community.
Catholic hospitals were created specifically for the
purpose of providing this faith-based healing
ministry and continue this mission today.
The Alliance of Catholic Health Care (“ACHC”)
represents Catholic health care providers in
California committed to carrying out the ministry of
health care by serving their patients and
communities.
ACHC provides advocacy, health
ministry formation, and leadership to the 51 Catholic
and community-based affiliated hospitals throughout
the state of California. Its advocacy includes public
policies and access to health care as a basic human
right, the promotion of nonprofit health care, and the
protection of religious freedom in the exercise of the
healing ministry of the Church.
On behalf of their members, including
Petitioner, CHA and ACHC highlight the broader
impacts of this case and how it sows an intolerable
level of inconsistency and confusion for faith-based
health care. Amici urge this Court to grant review in
Petitioner’s case to make clear that organizations
founded squarely within a religious tradition and
actively carrying out their faith-based ministry

3
through practices aligned with church teachings
cannot be forced to take actions prohibited by that
religion or penalized (including by litigation) when
they adhere to religious teaching. The alternative is
unthinkable, to categorically deny Catholic health
care entities, and all religious ministerial
organizations, the right to carry out their ministry
according to their religious beliefs. The instant case
is emblematic of a broader, well-orchestrated
national assault on religious ministries that seeks to
compel them to conform to secular norms or cease
serving their communities. Silence by the Court will
incentivize continued litigation across the country
designed to force religious organizations to separate
their beliefs from their ministries—striking a blow at
the heart of religious freedom.
SUMMARY OF ARGUMENT
The case at bar (hereinafter, “Minton”)
penalizes the direct expression of faith in a religious
health care institution. Going forward in this case
and in others like it around the country, it would chill
protected religious expression in public ministry,
creating a Hobson’s choice for such institutions
between exercising its religious identity or
abandoning it to avoid liability.
Catholic health ministry has been practiced
according to the principles of the faith community for
hundreds of years, engaging in the constant call to
discern holistic approaches to care that result from
faithful reflections on the teachings of the Church.
Since the first Christian disciples healed a paralyzed

4
man “in the name of Jesus Christ” (Acts 3:1-10),
Christians have followed the model and call of Jesus
to care for the sick, the poor, and the vulnerable.
Throughout history, the call has remained the same,
even as the methods and means of care have evolved
in response to the needs and signs of the times. In
the United States, the call has taken the form of a
large institutional and ministerial presence in health
care.
Contemporary Catholic health ministry
extends well beyond the name on the hospital. It
embodies a holistic approach to health, underpinned
by social justice; a preferential option for the poor
that hears the voices of the marginalized and assists
the most vulnerable members of society; and
employment practices that value and respect the
contributions of all. It cares for people of all ages,
races, faiths, sexual orientation and ethnic
backgrounds, in keeping with the example of Jesus’
own life and work.
The concrete expression of Catholic healthcare
ministry is found in the Ethical and Religious
Directives for Catholic Health Care Services
(“ERDs”). These principles and directives guide the
application of the Church’s teaching on medical and
moral matters to Catholic health care providers. The
ERDs are developed and approved by the United
States Conference of Catholic Bishops, in
consultation with religious communities, theologians
and ethicists, religious associations of ministries,
medical experts, the offices of the Holy See in Rome,

5
and Catholic health ministries and amicus CHA. 2
The ERDs are a well-established standard of care
applied uniformly to all patients and procedures,
without reference to sex, gender, race, or other
status. Treatment is individualized and directed at
the situation of the person needing care.
Transgender individuals routinely receive health care
at Catholic hospitals on the same terms as any other
individual and are not denied services that are not
prohibited by the ERDs for cisgender men and
women as well as transgender men and women.
However, the practical effect of Minton permits
any person who is denied a procedure because of the
application of the ERDs to his or her case to press a
liability action against the ministry. The threat of
such actions invites the religious organization to
consider bending or abandoning its beliefs to avoid
liability. Our Constitution protects religious health
care providers from having to make such choices.
This Court must act to avoid rendering religious
ministry vulnerable to state-sanctioned remedies in
instances where a person’s requested procedures
cannot be allowed without violating the tenets of the
religion on which it is founded.
2
United States Conference of Catholic Bishops, Ethical
and Religious Directives for Catholic Health Care Services

(Sixth
Edition,
June
2018)
found
at
http://www.usccb.org/about/doctrine/ethical-and-religiousdirectives/upload/ethical-religious-directives-catholic-healthservice-sixth-edition-2016-06.pdf

6

ARGUMENT IN SUPPORT OF GRANTING THE
PETITION
To be “Catholic,” hospitals must adopt and
adhere to the ERDs, a requirement enforceable by
the local Catholic Bishop, violation of which can
jeopardize a hospital’s standing within the Church,
including the loss of inclusion within the Church’s
tax exemption group ruling and other sanctions. Yet,
the Minton decision allows private litigants to
penalize Catholic hospitals unless they eschew the
ERDs in favor of a state’s anti-discrimination act,
because any refusal to honor a person’s request for a
service contrary to a uniform application of the
ERDs, could constitute a violation of the law, subject
to state sanction. The result leaves faith-based
organizations unprotected from a government
mandate that, if followed, places them at risk within
their own Church. Such a result violates the most
fundamental understanding of religious freedom.
A. The Ministry of Catholic Health Care Must
Follow the Ethical and Religious Directives
for Catholic Health Care Services
Historically, religious communities of diverse
faith backgrounds have shared an expectation that
members of the faith have a duty to care for anyone
in need, as it had been commanded and recorded in

7
the very documents of faith. 3 The practical effect of
this obligation was to provide ministries that
addressed more than the parochial needs of
members, but rather served the community around
them, including providing care for the poor,
orphaned, and sick, the proverbial “least of them” in
the community. Schools, hospitals, and other forms
of public-serving charities trace their roots to the
community service of churches and religious
communities. This is especially true of religious
health care where, in almost every community, there
are health care organizations with a religious
tradition as part of their heritage.
In the Catholic faith tradition, health care
ministry has deep roots. For nearly three hundred
years, that ministry has consistently been “animated
by the Gospel of Jesus Christ and guided by the
moral tradition of the Church.” 4 Over that time, the
health care industry has grown and changed. While
advancing and adapting to changes in medicine and
the market, the Catholic health ministry has
preserved its enduring mission to do the work of
Jesus. This provides the motivation, and even the
See e.g. Deuteronomy 15:11 (“Therefore I command you
to be openhanded toward your brothers and toward the poor and
needy in your land.”); Proverbs 31:9 (“Speak up and judge fairly;
defend the rights of the poor and needy."); Matthew 24:40
(“Truly I say to you, to the extent that you did it to one of these
brothers of Mine, even the least of them, you did it to Me.”).
3

4

ERD Directive 1.

8
method, of their ministry even through challenges,
both economic and non-economic, when it might seem
easier to abandon the mission or surrender it to
secularity.
In the United States, the Church,
through the women and men religious who founded
Catholic health care and their successors, conducts
its health care ministry according to the teaching and
values of the Church, for patients, their families and
their communities, reassured that its ability to serve
according to Catholic teaching is constitutionally
protected.
The Catholic health ministry is a values-based
mission animated by faith over profit to provide
quality health care with compassion and justice. 5
The work of the Catholic Church was always
recognized to extend through the words and actions
of its ministries, whether ministries were carried out
by clergy and formal religious orders, or by lay
people. This reality was spelled out explicitly by the
Church’s statement of the shifting weight of
Christian ministry work to lay members following the
Second Vatican Council. 6
5
Mission,
Vision,
Values,
DIGNITY
HEALTH,
https://www.dignityhealth.org/sacramento/about-us/missionvision-and-values (last visited April 9, 2020).

Karen Sue Smith, A Summary: Caritas in Communion,
94 HEALTH PROGRESS 80 at 81 (July—August 2013) (describing
how the Second Vatican Council shifted the basis of Christian
work to the work of the laity as ministry based on their
sacramental baptism in the faith).
6

9
The Catholic institutional presence in health
care, understood as a moral force, a standard-bearer
for certain fundamental values, is indeed important,
but its social posture and institutional values and
priorities have also delivered empirical results. The
results of this values-based approach to health care
speak for themselves.
For example, a 2010
independent study of 255 health systems found that
“Catholic and other church-owned [health] systems
are significantly more likely to provide higher quality
performance and efficiency than investor-owned
The same study found the Catholic
systems.” 7
systems provided higher quality performance than
secular or investor-owned systems, including lower
rates of mortality, fewer recurrent hospitalizations,
and comparably shorter stays. These results are
more than just brand recognition when a hospital or
health care provider has the word “Catholic” in its
name. They are the product of the core values that
inform the actions taken, or not taken, as part of a
holistic health care approach designed to encompass
the body, mind, and spirit.
To guide this holistic health care approach, the
Church set out its core values in the Ethical and
Religious Directives for Catholic Health Care
Services (“ERDs”) as standards for how to apply the
Differences in Health System Quality Performance by
Ownership, THOMSON REUTERS, Aug. 9, 2010.; David Foster et
al., “Hospital Performances Differences by Ownership,” Truven
Health Analytics (June 11, 2013).
7

10
Church’s teaching on medical and moral matters for
Catholic providers of health care services. 8 The
ERDs are developed and approved by the United
States Conference of Catholic Bishops, in
consultation as needed with religious communities,
theologians and ethicists, ministry associations,
medical experts and the offices of the Holy See in
Rome. The purposes of the ERDs are two-fold, “first,
to reaffirm the ethical standards of behavior in
health care that flow from the Church’s teaching
about the dignity of the human person; second, to
provide authoritative guidance on certain moral
issues that face Catholic health care today.” 9
However, the guidance does “not attempt to cover in
detail all of the complex issues” faced in health care,
but requires attention to the subtleties in individual
cases. 10 They are principles by which organizations
provide health care that expresses Catholic identity.
Beyond any rote checklist, the ERDs flexibly
accommodate ever-advancing medical care and
technology by engaging in an ongoing process of
reconciling modern medical practices with longstanding beliefs rooted in faith. As such, the ERDs
are a well-established standard for aligning Church
teaching with health care practices as an expression

8

ERDs at p. 4.

9

Id.

10

Id.

11
of religious beliefs through a ministry of health
care. 11

For hospitals to be recognized as Catholic, they
must adopt the ERDs into their operating and
organic documents which make them binding on the
ministry and enforceable by the local Catholic
Bishop. Failure to follow the ERDs can result in the
hospital losing its “Catholic” status within the
Church, exclusion from the Catholic Church’s group
tax exemption ruling, and even religious sanctions for
the sponsors of the hospital. 12 “Catholic health care
services must adopt these Directives as policy,
require adherence to them within the institution, and
provide appropriate instruction regarding the
Directives for administration, medical and nursing
staff, and other personnel.” ERD Directive 5. The
Kevin O’Rourke, Thomas Kopfensteiner, Ron Hamel, A
Brief History: A Summary of the Development of the Ethical
and Religious Directives for Health Care Services, 82 HEALTH

11

PROGRESS 6, Nov.-Dec. 2001.

12
Each Bishop in his own diocese has the right to declare
that an activity is “Catholic” or “not Catholic.” For instance, the
Bishop of Baker, Oregon withdrew the Catholic designation
from a hospital in Bend, Oregon due to his conclusion that it no
longer adhered to some Catholic teachings when it permitted
elective sterilizations. See Ed Langlois, Bishop says Oregon
hospital can no longer be called Catholic, CATHOLIC NEWS
SERVICE
(Feb.
16,
2010),
available
at
http://www.catholicnews.com/services/englishnews/2010/bishopsays-oregon-hospital-can-no-longer-be-called-catholic.cfm (last
visited April. 10, 2020).

12
medical privileges of physicians and other health
professionals depend on adherence to the ERDs, with
the health organization held responsible by the
Church for providing instruction in and supervision
of the standards.
The ERDs and fundamental values of Catholic
health care as applied reflect the nuances of
individual situations and evolving medical science
measured against ethical and religious principles
about the innate dignity of persons, the value of
human life and needs of the human community. In
all instances, Catholic values and moral reasoning
inform the contours of Catholic health care ministry
in practice.
Value-based practice and procedure is an
exercise that every health care institution engages in
daily. Standards may coalesce around some points
across institutions, but also vary from each other to
reflect institutional circumstances and decisions that
reflect its own situation. Facilities and providers are
bound by the standards that reflect the culture of the
entity itself. The distinction here is that the ERDs
distill those standards from a background that is
informed by Catholic faith and therefore reflect the
priorities of Church teaching applied to health care.
Each individual case is assessed on its own facts and
circumstances against these principles.
The fact that Dignity Health’s Catholic
hospitals are required to follow the ERDs was
acknowledged by both parties in this case and was
central to the initial decision to dismiss the case

13
based on this critical context of Petitioner’s actions.
It is undisputed that the hospital in this case was
adhering to ERD No. 53, which provides that “[d]irect
sterilization of either men or women, whether
permanent or temporary, is not permitted . . ..
Procedures that induce sterility are permitted when
their direct effect is the cure or alleviation of a
present and serious pathology and a simpler
treatment is not available.” ERDs, Directive 53
(emphasis added). Mercy San Juan Medical Center,
a Catholic hospital listed in the Official Catholic
Directory (“OCD”), determined that the procedure
was not compatible with the ERDs, including ERD
53. Petitioner’s cancellation of Mr. Minton’s surgery
arose from the hospital’s interpretation of the ERDs
and its obligation to follow them, an issue not in
dispute. The procedure was subsequently performed
at another Dignity hospital that is not Catholic and,
therefore, not bound by the ERD directive related to
sterilization.
Any Catholic hospital facing a surgical request
for sterilization, whether the patient is male or
female, cis- or transgender, must turn to the ERDs
and related guidance. The exercise of Catholic values
in health care are central to what makes it Catholic
and ministry. Carrying out this mission is layered
and individualized. To penalize use of the ERDs
would forbid the hospital from expressing its
religious identity and purpose.
What makes Catholic health care distinctive is
that it follows centuries of Church teaching about the

14
dignity of the person, solidarity among all human
persons, and respect for the needs of all. Following
its tenets sometimes requires departing from the
secular norm.
Medical procedures require
professional decision-making which necessarily
implicates morality and ethics. In religious health
care institutions, these decisions are guided by the
religious mission animating the health care ministry.
Where the exercise of Church teaching clashes with
otherwise neutral state laws, the solution should
favor a result that does not compel religious
organizations to act in contravention to their beliefs
or to forego their religious mission entirely.
B. State Regulation Should Not Penalize
Religious Health Care.
By allowing litigation to proceed under the
state’s
anti-discrimination
statute
for
nondiscriminatory religious practices, the Minton
decision penalizes Petitioner’s protected rights. Not
only does it run afoul of foundational First
Amendment principles, it assures the threat of
endless litigation against religious organizations,
pressuring them to either abandon their faith or exit
the public square. This landscape disadvantages all
those religious organizations who are carrying out
their health care ministry consistent with all federal
and state health regulatory oversight, but
nonetheless are subject to targeted litigation if
through application of religious principles they make
a decision in an individual case that the person may
protest through the courts.

15
This Court has made it clear that churches,
and the organizations carrying out the missions of
those churches, may not be automatically compelled
to violate their fundamental tenets in order to satisfy
anti-discrimination laws. Hosanna-Tabor Evangelical
Lutheran Church & School v. EEOC, 565 U.S. 171
(2012).
Even neutral and generally applicable
employment
discrimination
laws
prohibiting
disparate
treatment
of
women
cannot
constitutionally compel the ordination of women
when that is prohibited under religious law. Id. at
189.
This Court did not say the state’s antidiscrimination interest was less compelling, but
instead acknowledged the limits of applying that
interest against constitutionally protected freedoms
of religious ministries.
In the context of this case, it is within a
patient’s control to choose a health procedure that is
not permitted under Catholic moral teaching,
including those barred by the ERDs. However, this
choice cannot compel faith-based hospitals to provide
those procedures where there is a pre-existing
religious prohibition on the desired treatment under
the facts of the presenting case. Furthermore, as
already discussed, physicians with admitting
privileges at Catholic hospitals understand these
limitations and accept them as a condition of their
practice. Just as a doctor would not schedule a
procedure at a hospital that lacked facilities for a
particular procedure, a doctor would not choose to
schedule a procedure at a Catholic hospital that
violates the institution’s religious standards as well

16
as the admitting
physician.

agreement

extended

to

the

In contrast, the Catholic hospital, which could
not allow the hysterectomy Mr. Minton wanted, is
precisely the type of organization which possesses an
institutional First Amendment right against state
penalty for its religious practices. Its operation exists
for the purpose of providing health care in a manner
wholly consistent with the fundamental tenets of
Catholic faith. As such, it is “well established, . . .
courts should refrain from trolling through a person’s
or institution’s religious beliefs.” (emphasis added).
Mitchell v. Helms, 530 U.S. 793, 828 (2000)
(plurality).
The First Amendment unequivocally protects
the right to the free exercise of religion. And this
Court has long recognized the need to guarantee
religious organizations “independence from secular
control or manipulation” by refusing to intrude on
matters of Church operations and governance.
Kedroff v. St. Nicholas Cathedral, 344 U.S. 94, 116
(1952); see New v. Kroeger, 167 Cal.App.4th 800, 815
(Cal.App. 2008). Such intrusion second guesses the
legitimacy and applicability of religious beliefs, which
are beyond the purview of a State to weigh,
regardless of whether those religious beliefs are
“acceptable, logical, consistent, or comprehensible to
others”. Thomas v. Review Bd. of Ind., 450 U.S. 707,
714, (1981); Mitchell v. Helms, supra. To find
otherwise would impermissibly entangle courts in
assessing how a religious organization should apply

17
its fundamental tenets to its actions, such as in the
case of medical procedures provided or denied based
on compliance with the ERDs. The “very process of
inquiry leading to findings and conclusions” by this
Court would interfere with the Catholic faith in a
way that violates the First Amendment. See N.L.R.B.
v. Catholic Bishop of Chicago, 440 U.S. 490, 502
(1979).
In the specific context of Catholic health care,
it has long been recognized that hospitals operated by
religious organizations acting within the bounds of
their stated faith-based purpose have the right to
follow religious teaching in the medical practices of
the hospital and that this right must be strongly
protected. See Taylor v. St. Vincent’s Hosp. 523 F.2d
75, 77, (9th Cir. 1975) (“If the hospital’s refusal to
perform
sterilization
infringes
upon
any
constitutionally cognizable right to privacy, such
infringement is outweighed by the need to protect the
freedom of religion of denominational hospitals ‘with
religious or moral scruples against sterilizations and
abortions’”) (citation omitted); Watkins v. Mercy Med.
Ctr. 364 F. Supp. 799, 803, (D. Idaho 1973) (“Mercy
Medical Center has the right to adhere to its own
religious beliefs and not be forced to make its
facilities available for services which it finds
repugnant to those beliefs”), aff’d 520 F.2d 894 (9th
Cir. 1975); Allen v. Sisters of St. Joseph, 361 F.Supp.
1212, 1213-14 (N.D. Tex. 1973) (“The interest that
the public has in the establishment and operation of
hospitals by religious organizations is paramount to
any inconvenience that would result to the plaintiff

18
in requiring her to either be moved or await a later
date for her sterilization”), aff’d (5th Cir. 1974) 490
F.2d 81. Policing the decision-making process of a
Catholic hospital about matters expressive of
religious teaching would necessitate analysis by the
court to assess the weight and correctness of the
standards, parsing the ERDs with reference to
specific medical procedures, and balancing that
judicial assessment against an alleged injury. Such
actions are all beyond the constitutional authority of
the courts. See, e.g. Means v. United States
Conference of Catholic Bishops, 2015 WL 3970046 at
*13 (W.D. Mich. 2015), aff’d (6th Cir. 2016) 836 F.3d
643. As such, no inquiry aimed at determining if the
specific application of religious principles through the
ERDs had discriminatory intent can withstand
scrutiny under the First Amendment.
In cases such as this one, heightened
protection of the organization’s religious exercise is
appropriate to prevent government from impeding
religious expression. See, e.g., Corporation of the
Presiding Bishop v. Amos, 483 U.S. 327, 344-45
(1987) (Brennan, J., concurring) (distinguishing
nonprofit corporations based on their organization to
provide community services and noting that,
“Churches often regard the provision of such services
as a means of fulfilling religious duty . . . .”); Burwell
v. Hobby Lobby Stores, 134 S.Ct. 2751, 2794 (2014)
(Ginsburg, J., dissenting). In Hobby Lobby, this
Court protected the exercise of religion by secular forprofit corporations: “Any suggestion that for-profit
corporations are incapable of exercising religion

19
because their purpose is simply to make money flies
in the face of modern corporate law.
States,
including those in which the plaintiff corporations
were incorporated, authorize corporations to pursue
any lawful purpose or business, including the pursuit
of profit in conformity with the owners’ religious
principles.” 134 S.Ct. at 2755-56.
That case
recognized that the rights of closely-held (secular)
corporations are inseparable from the religious
liberty rights of the individuals who created and
control the business. This reasoning applies more
powerfully where a religious entity creates and acts
through a ministry to provide health care services in
conformity
with
well-established,
even
if
contemporaneously debated, religious principles.
Most recently, this Court indicated that the
outcome of a conflict between religious protections
and compelling state interest, such as antidiscrimination, depends upon a “reconciliation”
between the competing forces. Masterpiece Cakeshop,
Ltd. v. Colorado Civil Rights Commission, 138 S.Ct.
1719, 1723-24 (2018). This conclusion applies more
strongly here where the matter directly addresses the
institutional exercise of fundamental religious tenets
that are the ministry organization’s very purpose for
existence. E.g., EEOC v. Catholic Univ. of Am., 83
F.3d 455, 466 (D.C. Cir. 1996). The Minton case is
precisely in line with the need for solicitude and
reconciliation of the important rights at issue.
Under these circumstances, the state should be
required to find the least restrictive way to protect

20
against discrimination while permitting the
hospital’s undisputed religious practices as applied to
the facts of this case. This was precisely the path
taken by Dignity Health in rescheduling Mr.
Minton’s surgery for a facility not subject to the same
religious standards governing its Catholic hospitals.
But Minton contradicts this principle, and shows that
punishing the religious organization for not
performing a procedure prohibited by religious belief
– when a referral out to another non-objecting
practice is possible – would never be the least
restrictive means for the state to accomplish its
interest. 13
In the context of this Court’s
jurisprudence
concerning
the
constitutional
protections
afforded
to
religious,
nonprofit
organizations, the constitutionally preferred choice is
to allow an accommodation and not a constitutional
infringement.

13
California previously charted this course, where a
similar challenge occurred in the context of an individual
employee’s religious objections to providing a medical service at
a secular, for-profit, organization. North Coast Women’s Care
Med. Grp v. Super. Ct., 44 Cal.4th 1145 (Cal. 2008). There, the
Supreme Court of California determined that no less restrictive
means were available to accomplish the state’s compelling
interest in enforcing the anti-discrimination statute against
individual physicians. Specifically, the majority found that the
for-profit organization’s failure could have been mitigated if it
had provided the services at issue through other medical
providers who did not harbor religious objections. 189 P.3d, at
969. See also. Id. at 971 (Baxter, J., concurring).

21
The alternative is to invite endless litigation
over the future practice of medicine at Catholic and
other religious hospitals. Ultimately, this could chip
away at the freedom for Catholic hospitals to decide
whether specific procedures can be permitted when
consistent with the organization’s Catholic identity,
or must be foregone completely to avoid conflict with
state law. Such a policy would mean that, for
example, life-saving hysterectomies to mitigate
uterine cancer would be denied to both transgender
and cisgender patients, because the institution could
no longer consider whether a hysterectomy reflected
a method of treatment consistent with the Catholic
faith. Communities across the United States could
lose Catholic health care entirely if being forced to
cease providing such procedures subverted the ability
to remain operational. 14

14
See generally Howard Brubaker, Ellie Rushing, “Mercy
Hospital in West Philadelphia faces closure as an inpatient
facility,” Phila. Inquirer (Feb. 12, 2020), available at
https://www.inquirer.com/business/health/mercy-philadelphiahospital-closing-acute-care-hospital-20200212.html.
“Trinity
Health expects to end inpatient services at its 157-bed Mercy
Catholic Medical Center-Mercy Philadelphia Campus, a Catholic
stalwart that has served as a health-care safety net for poor
families in West Philadelphia for more than 100 years. . . Mercy
Philadelphia — which opened as Misericordia Hospital in 1918 as
a mission of the Sisters of Mercy — has a very high load of
Medicaid and Medicare patients and a high percentage of
uncompensated care . . . Hospital officials said the facility has lost
money for six of the last seven years.”

22
It cannot be that a Catholic hospital’s
consistent application of the ERDs is permitted
generally but becomes discriminatory when the same
application applies to persons in a protected class.
By way of illustration, consider that Catholic
hospitals routinely permit organ transplants from
living donors to critically sick patients. However,
these procedures are limited by the ERDs to
transplants that do “not sacrifice or seriously impair
any essential bodily function and the anticipated
benefit to the recipient is proportionate to the harm
done to the donor”. ERD Directive 30. A living-donor
transplant might be refused under the ERDs if it was
determined that the donor bore a disproportionate
risk of death. Yet, applying the civil law to the
religious practices as the Minton decision does here,
the hospital could only decline a disproportionaterisk transplant to someone in an unprotected class,
and could require performance of the transplant if
the patient falls within a protected class for fear of
litigation liability. Thus, the hospital would be
compelled either to provide no living-donor organ
transplants at all, or to provide living-donor
transplants
regardless
of
any
resulting
disproportionate harm to the donor, in violation of its
religious beliefs and in forfeit of its Catholic identity.
Both results do great harm that can be avoided by
clarifying that religious healthcare ministry decisions
are protected from civil scrutiny.
The counterargument would point to allegedly
limitless discretion by a religious health care
organization in choosing procedures and processes for

23
delivering health care. This argument goes too far.
Catholic hospitals, like their secular counterparts,
already comply with a broad range of standards
including facilities licenses, medical licensing, state
and federal regulations, and accreditation of patient
care, safety standards and programmatic outcomes.
None of these are in question here, only the choices
made by the hospital in how its operation squares (or
doesn’t) with the teachings of the faith underlying
the institution. Surely this basis for an institutional
policy is no less protected than any other institution’s
policy to limit procedures based on its capacity,
facilities, staffing, market niche, or fiscal outcome.
The crucial question joined by the instant case
is substantial and critical for the future of religious
healthcare.
May
state
anti-discrimination
requirements deny patients the option to choose
Catholic health care by effectively preventing a
Catholic hospital from putting its faith into practice?
This consideration is not far afield from the question
presented in the context of education in Pierce v.

Society of the Sisters of the Holy Names of Jesus and
Mary. 268 U.S. 510 (1925). There, this Court

determined that state laws requiring students to
forego private education violated the recognized right
of parents and guardians to direct the education of
their children.
Prohibiting private schools
impermissibly damaged these rights and the larger
community by denying this range of religiouslyinspired private action. Id. at 535. Similarly, this
Court decided that state anti-discrimination rules
could not fundamentally rework the character of

24
private associations in the service of some statesanctioned ideal. Boy Scouts of America v. Dale, 530
U.S. 640 (2000) (recognizing an organization’s right
to expressive association based on the policies it
maintained
regarding
leadership
in
the
organization). In Pierce and Dale, as here, the
general regulation of the business was not at issue,
but whether it could be channeled or limited
pursuant to a state’s nondiscrimination objectives.
So too here, California’s non-discrimination rules
cannot be allowed to dictate the content of religious
practices and in contravention of the common good of
the community. There is free space for religious
healthcare, and the contrary agenda permitted by the
Minton decision must be reviewed and reversed.
CONCLUSION
The lower court decision runs roughshod over
First
Amendment
principles
for
religious
organizations, and the petition for writ of certiorari
should be granted.
Respectfully submitted,
Catherine Hurley
CATHOLIC HEALTH
ASSOCIATION OF THE
UNITED STATES
1875 Eye St. NW
Suite 1000
Washington, DC 20006

Mark E. Chopko

Counsel of Record

Marissa Parker
Jennifer A. Gniady
STRADLEY RONON
STEVENS & YOUNG, LLP
2000 K St., N.W., Ste 700
Washington, DC 20006
(202) 419-8410
mchopko@stradley.com

